WAIVER

SUPREME COURT OF THE UNITED STATES

Supreme Court Case No. 20-6183

Timothy N. Hatton y, Mark R. Sevier, Superintendent, NCCF
(Petitioner) (Respondent)

 

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.

Please check one of the following boxes:
{J Please enter my appearance as Counsel of Record for all respondents.

There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

 

 

I certify that I am a member of the Bar of the Supreme Court of the United States (Please explain if
your name has changed since your admission):

Signature a 4 Onsen Cop

Date: 2. 2020

 

 

(Type or print) Name Stephen R. Creason
@ Mr. O Ms. O Ms. Qj Miss

Firm_Office of the Attorney General

 

Address Indiana Government Center South, 302 W. Washington Street, Fifth Floor
City & State Indianapolis, IN Zip 46204
Phone.317-232-6222

 

A COPY OF THIS FORM MUST BE SENT TO PETITIONER’S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

SEE REVERSE FOR INFORMATION CONCERNING THE STATUS OF A CASE ON THE
DOCKET.

CC: Timothy N. Hatton DOC #231193
P.O. Box A
New Castle, IN 47362
